FORMAL ORDER
STATE OF

ARKANSAS,

)

)
COURT OF

APPEALS

SCT.

)

BE IT REMEMBERED, THAT A SESSION OF THE COURT OF APPEALS
BEGLIN AND HELD IN THE CITY OF LITTLE ROCK, ON MARCH3,2O2O,
AMONGST OTHERS WERE THE FOLLOWING PROCEEDINGS, TO-WIT:

COURT OF APPEALS CASE NO. CR-20-126

J.P.

APPELLANT

V. APPEAL FROM VAN BUREN COUNTY CIRCUIT COURT - TIJY-19-25
APPELLEE

STATE OF ARKANSAS

MOTION OF LYNN F. PLEMMONS TO BE RELIEVED AND TO STAY BzuEFING
SCHEDULE IS GRANTED. BEN MOTAL IS APPOINTED AS COLINSEL FOR THE
APPELLANT. APPELLANT'S BRIEF IS DUE IN FORTY DAYS (APRIL I2,2O2O).

IN TESTIMONY, THAT THE ABOVE IS A TRUE COPY OF
THE ORDER OF SAID COURT OF APPEALS, RENDERED

IN THE CASE HEREIN STATED, I, STACEY PECTOL,
CLERK OF SAID COURTOFAPPEALS, HEREUNTO
SET MY HAND AND AFFIX THE SEAL OF SAID
COURTOFAPPEALS, AT MY OFFICE IN THE CITY
OF LITTLE ROCK, THIS 3RD DAY OF MARCH,2O2O.

BY:
DEPUTY CLERK

ORIGINAL TO CLERK

CC:

LYNN F. PLEMMONS
BEN MOTAL
DARNISA EVANS JOHNSON, DEPUTY ATTORNEY GENERAL
J.P.

